                                                                                       <.-/

                                                                 NATIONAL SCIENCE FOUNDATION
                                                                  OFFICE OF INSPECTOR GENERAL
                                                                    OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

Case Number: A05060041                                                                        11      .        Pailof1



                       A proactive review for plagiarism in proposal text identified an unsuccessful SBIR proposal'
               that appeared to contain text from a pending patent application.2 Some of the inventors listed on the
               patent application appeared in the proposal as consultants but were not identified as the PI, Co-PI, or
               otherwise as authors of the text. Another i n ~ e n t o rwho
                                                                        , ~ also appeared on the patent application, was
               the CEO of the PI'S employer.4 The sole PI^ on the proposal did not appear anywhere on the patent
               application. The consultants' other publications were referenced in the proposal, but the patent was
               not mentioned at all.

                 .   .   .   We contacted the subject to inquireabout the copied text. The subject asserted.that he had
     - :permission from the consultants and the CEO to use the text &d thatthey had.assisted in the                          ,        ,



         :.   : proposalkpreparation.  Based on the statements in the subject's. response it was:evident,thathedid
        - ;;inot;.understand the significance of listing himself as the ~ 1 a n d t h G
   i:.:I-                                                                             .othersras.consultants.iWeAave...: . .
  :  ,    >$,written the PI to alert him of the NSF. Grant Proposal hide's re~uirement.that~~~s~.shouldidentify            ;..   ',




:-;:;
    -,  : $:author(i) other than the PI in the proposal or face potential reseakh !mis~ondu~tfindin~s:.~       F,:. :. :;.)..:. ;


                             Accordingly, this case is closed.                                            0;




                NSF Grant Proposal Guide (9104) Chapter 1, Section D.3.



ISF 01G Form 2 (1 1102)
